                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13020017                                                                     Page 1 of 1



                 We assessed an allegation that a proposal reviewer 1 may have had an undisclosed conflict
        of interest. We examined the proposal 2 and its review, and multiple other resources to determine
        if a research collaboration was in place at the time of proposal submission or review that would
        have generated a conflict. We uncovered no evidence of such prior collaboration. A research
        collaboration put in place after proposal review would not be in violation of NSF regulations.

                  Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
